<html>
<title> - NOMINATIONS OF ALBERT F. LAUBER AND RONALD LEE BUCH</title>
<body><pre>[Senate Hearing 112-810]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-810
 
                    NOMINATIONS OF ALBERT F. LAUBER

                          AND RONALD LEE BUCH
=======================================================================


                                HEARING

                               before the

                          COMMITTEE ON FINANCE

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

  ALBERT F. LAUBER, TO BE A JUDGE OF THE UNITED STATES TAX COURT; AND 
     RONALD LEE BUCH, TO BE A JUDGE OF THE UNITED STATES TAX COURT

                               __________

                           DECEMBER 11, 2012

                               __________

                                     
                                     

            Printed for the use of the Committee on Finance





                  U.S. GOVERNMENT PRINTING OFFICE
82-626                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                          COMMITTEE ON FINANCE

                     MAX BAUCUS, Montana, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
KENT CONRAD, North Dakota            OLYMPIA J. SNOWE, Maine
JEFF BINGAMAN, New Mexico            JON KYL, Arizona
JOHN F. KERRY, Massachusetts         MIKE CRAPO, Idaho
RON WYDEN, Oregon                    PAT ROBERTS, Kansas
CHARLES E. SCHUMER, New York         MICHAEL B. ENZI, Wyoming
DEBBIE STABENOW, Michigan            JOHN CORNYN, Texas
MARIA CANTWELL, Washington           TOM COBURN, Oklahoma
BILL NELSON, Florida                 JOHN THUNE, South Dakota
ROBERT MENENDEZ, New Jersey          RICHARD BURR, North Carolina
THOMAS R. CARPER, Delaware
BENJAMIN L. CARDIN, Maryland

                    Russell Sullivan, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Baucus, Hon. Max, a U.S. Senator from Montana, chairman, 
  Committee on Finance...........................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     2

                        ADMINISTRATION NOMINEES

Lauber, Albert F., nominated to be a judge of the United States 
  Tax Court, Washington, DC......................................     4
Buch, Ronald Lee, nominated to be a judge of the United States 
  Tax Court, Washington, DC......................................     5

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Baucus, Hon. Max:
    Opening statement............................................     1
    Prepared statement...........................................    13
Buch, Ronald Lee:
    Testimony....................................................     5
    Prepared statement...........................................    14
    Biographical information.....................................    15
    Response to a question from Senator Hatch....................    26
Hatch, Hon. Orrin G.:
    Opening statement............................................     2
    Prepared statement...........................................    27
Lauber, Albert F.:
    Testimony....................................................     4
    Prepared statement...........................................    29
    Biographical information.....................................    30
    Response to a question from Senator Hatch....................    38

                                 (iii)


                 NOMINATIONS OF ALBERT F. LAUBER, TO BE

                    A JUDGE OF THE UNITED STATES TAX

                  COURT; AND RONALD LEE BUCH, TO BE A


                  JUDGE OF THE UNITED STATES TAX COURT

                              ----------                              


                       TUESDAY, DECEMBER 11, 2012

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:07 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Max 
Baucus (chairman of the committee) presiding.
    Present: Senator Orrin G. Hatch.
    Also present: Democratic Staff: Russ Sullivan, Staff 
Director; Tiffany Smith, Tax Counsel; and Rory Murphy, 
International Trade Analyst. Republican Staff: Chris Campbell, 
Staff Director; and Nicholas Wyatt, Tax and Nominations 
Professional Staff Member.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
            MONTANA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The hearing will come to order.
    Henry Adams, the famed writer and great-grandson of John 
Adams, once wrote, ``All experience is an arch to build upon.''
    Before us today are two nominees with decades of 
experience: Mr. Lauber and Mr. Buch. Both of you are nominated 
to serve as judges on the U.S. Tax Court. Your experience will 
serve as an important arch to build upon in the positions for 
which you have been nominated.
    The Tax Court gives Americans a venue to address legitimate 
tax problems, and it helps guarantee fair administration of our 
tax laws. It is the cornerstone of our tax system.
    If confirmed to be judges, you will hear thousands of cases 
from all over the country. Each case will require your careful 
consideration. The President chose you to serve as judges 
because of the expertise you have gained during your long 
careers.
    Mr. Lauber, you currently serve as the director of the 
graduate tax and securities programs at the Georgetown 
University Law Center. Your career in tax law has included work 
in private practice and the Department of Justice.
    Mr. Buch, as an attorney with the Internal Revenue Service, 
you regularly represented the Agency before the U.S. Tax Court. 
Since then, you advised many taxpayers in the private sector on 
matters relating to tax law. You have also taught hundreds of 
students the ins and outs of the tax code as a law professor at 
Georgetown and Capital University.
    I am confident that both of you will make excellent judges 
on the Tax Court, and, if confirmed, you will be challenged in 
your new positions. I believe, in Henry Adams's words, you will 
build upon your extensive experience and find success.
    Your experience proves you are knowledgeable, that you are 
qualified, so I thank you for being here and look forward to 
discussing your nominations.
    [The prepared statement of Chairman Baucus appears in the 
appendix.]
    The Chairman. Senator Hatch?

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Well, thank you, Mr. Chairman. Thank you to 
the nominees before us today. As we all know, the Tax Court is 
a very important institution, and it is important that this 
committee keep its healthy functioning in mind. If both of you 
are confirmed, 17 out of the 19 Tax Court judge positions will 
be filled. I want to compliment the distinguished chairman for 
his work in this area.
    The Tax Court is important because it is a venue where 
taxpayers can litigate issues without paying a disputed 
liability in advance. The tax code does not need to be a 
harness where the individual is yoked to the State, and, as an 
institution, the Tax Court helps to ensure that that remains 
the case.
    The two nominees before us are very qualified, seem very 
qualified to serve. Ronald Buch is a partner at Bingham 
McCutchen, where he has represented clients before the IRS, the 
Department of Justice, and the Federal courts. He is also an 
adjunct professor at the Georgetown University Law Center.
    Albert Lauber has also spent a significant part of his 
career in private practice at the firm of Caplin and Drysdale. 
Currently, he works as a visiting professor also at the 
Georgetown University Law Center, and he has served as Tax 
Assistant to the Solicitor General.
    Both of your backgrounds seem to suggest that you have the 
necessary skills and experience to serve on the Tax Court, and 
I hope that, if confirmed, you will be able to use the 
practical knowledge you have gained from your law practices to 
apply faithfully the tax laws authored by Congress and to 
ensure that taxpayers are treated fairly by the system of tax 
administration rather than being simply subject to it.
    I also want to briefly discuss a matter that is not 
directly related to our nominees today, but it is a matter of 
long-standing concern. During a hearing last May, I remarked 
that there appeared to be a pattern at the Treasury Department 
of either refusing to respond to Senators' questions, or only 
strategically responding the night before the Department wanted 
something from this committee.
    At the time, it was referring to delayed responses to 
written questions submitted after Secretary Geithner testified 
before the committee about the President's budget. It appears 
that this trend continues. As this hearing was coming together, 
my staff asked the Treasury Department about two information 
requests, one made on September 15 and the other on October 15. 
After weeks of receiving no response and then mentioning these 
requests in the context of a nomination hearing, lo and behold, 
I received responses about 2 days later.
    I, and other members of this committee, have other 
outstanding requests for information to Treasury and other 
Cabinet agencies. I, along with most of my colleagues, are 
determined to fulfill my constitutional obligation to conduct 
oversight of the executive branch. Yet, at every turn, it 
appears that the administration is only willing to cooperate 
when there is something in it for them. When we are talking 
about confirming nominees for administrative positions, there 
seems to be a willingness to do, or promise to do, just enough 
to get a nominee confirmed.
    Likewise, officials virtually always promise to be 
responsive to requests, but far too often these promises fall 
by the wayside. If the President, Cabinet secretaries, and 
other officers confirmed by the Senate, are unable to wade 
through their own bureaucracy in order to provide timely 
responses to requests from Congress, then they ought to change 
their methods for processing such requests.
    On the other hand, if they are simply averse to providing 
answers to questions from Congress, that is a much bigger 
problem. Whether there is a process problem or whether there is 
an unwillingness on the part of administration officials to 
respond to requests, the current mechanisms for facilitating 
oversight are clearly not adequate.
    I look forward to continuing to work with the chairman to 
address this problem. As I noted, this is not directly related 
to the nominees before the committee today, so I will not take 
up any more of the committee's time discussing the matter, but 
it is a matter of great concern to me, Mr. Chairman. I know it 
is to you as well.
    Now, I just want to say, finally, that for everybody here 
today, it is Senator Baucus's birthday. So I think I want to 
pay tribute to you for living this long, especially in this 
hostile environment. [Laughter.] And I wish you another 71 
years.
    The Chairman. Well, aren't you kind? Long life is somewhat 
attributable to being able to work with somebody who is a 
really good person, like the Senator from Utah.
    Senator Hatch. I hope I qualify.
    The Chairman. That is very kind of you. Thank you.
    I might say also, I very much agree with your last 
statement about the lack of responsiveness from Treasury. As 
you know, Senator, any request you make is a request from me 
too.
    Senator Hatch. Vice versa.
    The Chairman. And vice versa. I believe strongly that the 
Treasury should very efficiently expedite any requests that you 
might have of them, because I know they are legitimate and in 
good faith, and we will support you in that.
    Senator Hatch. Well, thank you, Mr. Chairman.
    The Chairman. It is the right thing to do. Thank you very 
much for your statement too. I appreciate that.
    Senator Hatch. You bet.
    The Chairman. And for your good wishes.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. I would like, now, to introduce the panel. 
Both of today's witnesses have been nominated to be judges on 
the U.S. Tax Court: Mr. Albert Lauber and Mr. Ronald Buch.
    As is our regular practice--you may know, but I will remind 
you--we would like you to submit your prepared statements for 
the record and then summarize them orally in any way you want. 
But try to keep your remarks to about 5 minutes.
    I would urge you to be candid here. Do not be too formal. 
Say what you think, because life is short. I just turned 
another year. You cannot take it with you; you might as well do 
the best you can right now. So, why don't you both proceed?
    Before you do, though, I would like to have each of you, if 
you are so inclined, to introduce any friends or family who 
might be here with you, some people who are kind of proud to be 
part of your life.
    So I will start with you, Mr. Lauber.
    Mr. Lauber. Thank you, Mr. Chairman. I would like to 
introduce two members of my family, my partner of 23 years, 
Craig Hoffman, who is also a professor at Georgetown Law 
School----
    The Chairman. Is he here?
    Mr. Lauber [continuing]. And my niece, Hannah----
    The Chairman. All right.
    Mr. Lauber [continuing]. Who just finished college and is 
now also entering public service by working for the DC public 
schools.
    The Chairman. Well, super. Why don't you stand up so we can 
recognize you? Thank you very much. [Applause.]
    The Chairman. All right.
    Mr. Buch?
    Mr. Buch. I am thrilled that my family could be here today, 
my daughter Emma who is going to be starting college at the 
University of Washington; my wife Deb; my daughter Allison, a 
student at St. Stephen's; and my parents, Ron and Hella Buch, 
who flew up from Florida for this hearing today. Also, I am 
surprised to see several colleagues and friends here as well, 
so I am thrilled they can join us today.
    The Chairman. Well, if you could all stand. All of you. 
Come on, stand up. [Applause.]
    Gosh, Mr. Buch, your family and friends constitute half of 
the audience here. [Laughter.] That is pretty good.
    Mr. Lauber, why don't you proceed?

 STATEMENT OF ALBERT F. LAUBER, NOMINATED TO BE A JUDGE OF THE 
            UNITED STATES TAX COURT, WASHINGTON, DC

    Mr. Lauber. Thank you, Chairman Baucus, Ranking Member 
Hatch, for the privilege of being here today. I am also 
grateful to President Obama for nominating me to the U.S. Tax 
Court. I am very grateful to the staff of the committee on both 
sides of the aisle for their diligent efforts to bring this to 
fruition at a very busy time for all of you here at year-end.
    I have looked at tax from many vantage points during my 
career. As a student at Yale Law School, I studied tax under 
Professor Boris Bittker and Marvin Chirelstein, who are two of 
the leading figures in the history of tax law. As a law clerk, 
I worked on several tax opinions for Justice Harry Blackmun of 
the Supreme Court, who was one of the few Justices who actually 
liked tax cases and got quite a few of them.
    As a lawyer in the Justice Department, I worked under Rex 
Lee and Charles Fried, handling many tax appeals, and I argued 
15 cases in tax in the U.S. Supreme Court. In private practice, 
I spent 20 years at Caplin and Drysdale, handling tax 
controversy matters. For the past 6 years, I have been teaching 
tax at Georgetown, running the graduate tax program. I have 
counseled about 1,000 tax students during my time there, and 30 
of them have gone on to become Tax Court law clerks.
    So I think, through my experience, I have come to 
understand what makes a good judge, and what makes a good Tax 
Court judge in particular. If confirmed, I will endeavor to 
resolve disputes between taxpayers and the Internal Revenue 
Service by applying the tax laws according to Congress's 
intent.
    I am happy to answer any questions you may have.
    The Chairman. Thank you, Mr. Lauber.
    [The prepared statement of Mr. Lauber appears in the 
appendix.]
    The Chairman. Mr. Buch?

 STATEMENT OF RONALD LEE BUCH, NOMINATED TO BE A JUDGE OF THE 
            UNITED STATES TAX COURT, WASHINGTON, DC

    Mr. Buch. Good morning, Chairman Baucus and Ranking Member 
Hatch. Thank you. It is truly a privilege to be here today. I 
am certainly grateful to President Obama for having nominated 
me to be a judge of the U.S. Tax Court. Thank you for 
scheduling this hearing, and thank you to the staff members who 
have been generous with their time in preparing for today.
    A moment ago I introduced my family members, and I am 
thrilled that they could be here today. I suppose the purpose 
of a statement such as this is to tell you a bit about who I 
am. I am a product of the people seated behind me. My father 
started out as a stockroom manager in a Kresge store in the 
late 1950s and retired as executive vice president of K-Mart 
Corporation.
    The Chairman. One of the first cases you read in law school 
is Kresge.
    Mr. Buch. That is correct. [Laughter.]
    Sebastian Spering Kresge, the founder of the company.
    The Chairman. Right.
    Mr. Buch. He rose through the corporate ranks, not because 
of academic pedigree, but because of hard work. My mother 
emigrated to this country from Germany after she met and 
married my father when he was stationed there with the Army.
    During much of my childhood, she was not employed outside 
the home, but she worked harder than most people I have known, 
whether volunteering as a school nurse, as an AIDS counselor, 
as a substance abuse counselor at a church, at a museum. She 
tirelessly gave, and continues to give of herself, simply for 
the reward of having served.
    If I had to point to two key values I have learned from my 
parents, they would be hard work and serving something greater 
than yourself. Rightly or wrongly, I like to think of my career 
as having been guided by these values. I worked for the IRS 
Office of Chief Counsel, where perhaps the greatest reward was 
standing before the U.S. Tax Court and knowing that I was 
representing our country.
    I have also had the pleasure of representing taxpayers in 
our adversarial tax system. But, in addition to representing 
taxpayers and the IRS, I have tried to serve the tax system. I 
have been an active member of the tax sections of the American 
Bar Association and the District of Columbia Bar Association, 
chairing committees of each. I have taught as an adjunct 
professor at Georgetown Law. I have been an active member in 
the Inns of Court, all of which I view as bettering our 
profession.
    If confirmed, I hope to continue to be guided by these 
values, to work hard and to serve our system by fairly and 
impartially applying the tax law. Thank you. I look forward to 
any questions you might have.
    [The prepared statement of Mr. Buch appears in the 
appendix.]
    The Chairman. Thank you both.
    I have three obligatory questions I will first ask, and I 
would ask each of you to indicate your response.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated? Mr. Lauber?
    Mr. Lauber. No, sir.
    The Chairman. Mr. Buch?
    Mr. Buch. No, sir.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Lauber. No, sir.
    Mr. Buch. No, sir.
    The Chairman. Do you agree, without reservation, to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress, if you are confirmed?
    Mr. Lauber. Yes, sir.
    Mr. Buch. Yes, sir.
    The Chairman. All right. Thank you.
    The basic question I have--I am sure it is in the minds of 
a lot of people in this room--is your thoughts about how we 
might reform the tax code. You all are deeply enmeshed and 
ensconced in the code in your backgrounds. We are going through 
this fiscal cliff negotiation now, at least the President and 
the Speaker are at this point, and I suspect that, probably 
next year, we will spend a good bit of our time reforming the 
code, both individual income tax provisions as well as the 
corporate provisions.
    My guess is there will probably be other measures as well: 
estate tax, for example. It is just hard to tell. So, your 
thoughts when you are thinking about the code. My gosh, why do 
they not do this, why do they not do that? Things that might 
come to mind just off the top of your head, or if you feel very 
firmly, very strongly, passionately about some part, some 
provision that should be changed, we would like to hear that 
too. But you are a resource. It is an opportunity for us to 
learn all we can and get the best advice we can and do the best 
we can in the next year, so we probably should hear from you 
before you get on the Court.
    Mr. Lauber?
    Mr. Lauber. Well, I think for me, and I would suspect for 
every tax professor in the country, the gold standard is the 
Tax Reform Act of 1986, which this committee is largely 
responsible for. That was the last real tax reform we have had 
in the country, and it was a wonderful example of President 
Reagan working with Democrats across the aisle to produce real, 
genuine tax reform, including lowering rates and 
simplification. That is the gold standard.
    Now, it is harder to do that today because the key to that 
provision was it was revenue-neutral, and there was a time when 
the tax reform could be done in a revenue-neutral way. My fear 
is, now that is not going to be possible. It is going to have 
to be done in a way that will raise some revenue.
    But that would be my, and I think most people's, preferred 
path, to try to do it through simplification, base-broadening, 
closing special interest loopholes. It may not be possible to 
lower rates much, but, if that could be done in the context of 
reform, I think it would be a positive.
    The Chairman. Are there any provisions--umbrella-type tax 
expenditures, any credit exclusions or deductions--that you 
find either heinous or questionable?
    Mr. Lauber. Now I am answering it in my capacity as a 
citizen, not as a prospective judge.
    The Chairman. Yes. Sure. Sure.
    Mr. Lauber. We will of course enforce the laws the Congress 
has enacted across the board. But I think the manufacturing 
deduction in section 199 is one of the most offensive 
provisions in the revenue code.
    The Chairman. Most?
    Mr. Lauber. Offensive.
    The Chairman. Offensive.
    Mr. Lauber. And it does not accomplish any good. It just 
throws money at--I mean, the definition of manufacturing has 
become so gigantic that it is not just Caterpillar tractor that 
is benefitting from this, but companies you would not dream of 
who do not manufacture anything.
    The Chairman. Do you know the history of it, or do you not?
    Mr. Lauber. Pardon?
    The Chairman. Do you know the history of 199? It is a 
follow-on to FSC/ETI.
    Mr. Lauber. Yes. Yes. Right. Right.
    The Chairman. Because European countries, value-added 
countries, could rebate the export portion.
    Mr. Lauber. Right.
    The Chairman. So we attempted our FSC/ETI, and that was 
ruled by WTO as not quite up to muster, so we had to find 
something else. I grant you that the manufacturing deduction is 
a poor substitute for what we otherwise were attempting to do, 
but I appreciate that.
    Mr. Buch?
    Mr. Buch. As a controversy lawyer, I have the pleasure of 
dealing with the code as it is already in effect. I look at it 
as an unenviable task to be placed in the position of, for 
example, the members of this committee to try to weigh the 
policy priorities of deductions that maybe have incentives 
included in them as weight against the other policy, the 
countervailing policy of simplifying the code.
    Simplification certainly makes matters easier for 
taxpayers, but then that takes away the ability of Congress to 
use the code for incentives. Certainly as a tax purist, 
simplification is always a laudable goal from my perspective. 
If asked about a specific area, again, I look at my background 
as a controversy lawyer.
    The Tax Equity and Fiscal Responsibility Act of 1982 
enacted a set of procedural provisions that deal with 
partnerships that were extraordinarily effective and 
extraordinarily helpful at the time for streamlining 
partnership proceedings. I think there has been a fair amount 
of commentary out there today that those provisions add 
complication today rather than streamline things. So, that 
might be one area that I would consider looking at.
    The Chairman. All right.
    Senator Hatch?
    Senator Hatch. Well, I think both of you are very well-
qualified. Over the course of your professional careers, you 
have represented and worked with parties that are highly 
sophisticated with respect to tax matters. As a Tax Court 
judge, you will find yourself presiding over many cases that 
involve unsophisticated taxpayers with few resources to deploy 
in their defense. What lessons do you take from your prior 
professional experience to ensure that you treat these 
taxpayers with respect and understanding, while stopping short 
of awarding them an advantage? Do you want to go first, Mr. 
Lauber?
    Mr. Lauber. Senator, as you know, the Tax Court is unusual 
among Federal courts in that it has a specific procedure for 
smaller tax cases that taxpayers can elect.
    Senator Hatch. Right.
    Mr. Lauber. If they do that, they are entitled to somewhat 
simplified procedures. I think it is a very, very important 
part of the role of the Tax Court judge to make these cases 
less daunting to these taxpayers who probably have never been 
in court before. Either they cannot afford a lawyer, or the 
amount at issue is not big enough to warrant the expense of 
hiring a lawyer.
    I think the goal there is to enable them to tell their 
story in a layperson's manner and get at the truth and the 
facts and decide the case fairly, but make it as user-friendly, 
as it were, as possible for these less-sophisticated taxpayers.
    Senator Hatch. Well, thank you.
    Mr. Buch?
    Mr. Buch. I think one of the most important roles of the 
Tax Court is providing a forum where people feel like they have 
been treated fairly. For many or most taxpayers who get into 
controversies with the IRS, the first independent body that 
they deal with is the U.S. Tax Court. They may have been 
through an examination with the IRS or through the IRS Appeals 
Division, but the Tax Court is the first truly independent 
body.
    So I think it is an important role for the Tax Court to 
make those people feel as though they have been treated fairly. 
And yes, the Court must, at the end of the day, reach the right 
result. But again, simplified procedures that help those 
taxpayers through the system are a way that the Tax Court helps 
those people to ensure that they have been treated fairly, 
again, regardless of whether the ultimate result is in their 
favor or in the government's favor.
    Senator Hatch. Let me just ask one other question that I 
would like to ask the both of you. That is, each of you has an 
extensive background working in tax. Given your experience 
working in tax matters and tax issues, to what extent do you 
believe that the complexity of the code contributes to the 
number and types of cases considered by the U.S. Tax Court? And 
assuming there is some type of correlation, how can we as 
legislators use that information to write better laws?
    Mr. Lauber. Well, I think, Senator, the more complex the 
tax code is, the more opportunities there are for people to try 
to game the system or simply be confused about what the right 
answer is. I mean, there are now, I think, three or four 
separate provisions governing education expenses, deductions, 
and credits. It is just mind-numbingly complex. This is an area 
where people are in college, going to community college.
    To expect people at that level to be able to parse through 
three or four different ways of deducting their educational 
expenses, it just encourages confusion, and that will trigger 
audits because the computer at the IRS spots a problem and 
spits out a deficiency notice.
    So I think it is true that if you can simplify the code, 
eliminate these overlapping provisions that cause taxpayer 
confusion, you will reduce the amount of litigation. Indeed, I 
think, as I recall, the Tax Court's docket of cases peaked at 
around 90,000, 85,000, in the early 1980s before the Reform Act 
was passed. In part, thanks to the Tax Reform Act of 1986, the 
docket is now down to 30,000 cases.
    So we do have some empirical evidence that simplification 
does reduce litigation in the Tax Court.
    Senator Hatch. All right.
    Mr. Buch, do you have anything to add to that?
    Mr. Buch. Simply that simplification naturally, I think, 
would have a correlative effect on the workload, for example, 
of the Court. One would have to assume that that would be the 
effect down the line. There is certainly a transition. It takes 
time. Simplification today would, I suppose, affect the docket 
maybe 5 years down the road, once you get into filing seasons 
and returns being filed. But simplification certainly would 
ease the workload of the Court.
    Senator Hatch. Well, I want to commend both of you. To give 
up your outside profession to serve is really, really 
commendable. We wish you the very best. Hopefully we can get 
these folks through.
    The Chairman. Thank you, Senator.
    Mr. Lauber, why do you want this job?
    Mr. Lauber. Well, I believe----
    The Chairman. Why are you seeking it?
    Mr. Lauber. I have been a law clerk twice, and I have been 
inside courthouses, watched the work of judges, and I have 
always wanted to be a judge.
    The Chairman. Why?
    Mr. Lauber. Well, I think I have always been regarded as a 
very good writer, so I think I will be a good writer of 
judicial opinions. I sort of--people often say being a judge is 
sort of a monastic existence. You are in chambers, you are in a 
very small law firm with two administrative assistants, a 
couple of law clerks, and you are not out in the public sector 
the way Senators are in the public eye all the time. I kind of 
like being on my word processor and drafting good prose. I 
think the lifestyle of a judge will suit me.
    I think I am very fair. I think I always try to be fair and 
reasonable, and I think that would be a good attribute for 
being a judge. I like public service, I really do. I believe in 
public service.
    The Chairman. Mr. Buch, what about you? Why do you want to 
be a Tax Court judge?
    Mr. Buch. It is a question I have asked myself as I have 
been going through this process, to be honest. [Laughter.]
    The Chairman. And what is the answer? [Laughter.]
    Mr. Buch. I think different lawyers go through their 
profession looking at different parts of being a lawyer and 
view different things as the pinnacle of the profession. One of 
my best friends views being a solo practitioner as the pinnacle 
of the profession and recently went out and did that.
    I work for someone who went out and started his own law 
firm, and I suspect he viewed that as the pinnacle of the 
profession. A guy who sat next to me in law school viewed the 
pinnacle of the profession being the managing partner of his 
firm, and that is what he is doing today. I have always viewed 
the bench as the pinnacle of the profession.
    The Chairman. What do either of you want to accomplish?
    Mr. Buch. I am sorry?
    The Chairman. What do either of you want to accomplish? How 
do you want to be known, regarded? What do you want to be known 
for when you retire?
    Mr. Buch. One word for me: fairness.
    The Chairman. Here is Judge Buch, he is fair.
    Mr. Buch. Absolutely.
    The Chairman. All right.
    Mr. Lauber, are there any goals that you are going to 
pursue as a Tax Court judge? What do you want to be known for, 
the legacy? What is this all about?
    Mr. Lauber. I think judges should not become notorious. If 
they do, they are probably not doing their job very well. I 
think the job of a judge is to be fair, to act within the law. 
I would like to be reversed as little as possible by courts of 
appeals. I will try to get the answer right. I think that would 
be--having a low reversal percentage would be an 
accomplishment, I think.
    The Chairman. Well, maybe they are wrong in the appellate 
court. [Laughter.]
    Senator Hatch. You will certainly feel that way if you are 
reversed.
    The Chairman. You are right. You are right. [Laughter.]
    Well, I appreciate that. I have no further questions. I 
just wish you both such success. I want to just note, though, 
that the Tax Court Chief Judge Thornton is in the audience here 
today, as well as Judge Joe Gale. I know them both and am very 
proud of them. They will be great colleagues of yours. I wish 
you the utmost success and good luck. Thank your families too, 
because it is a mutual joint sacrifice, public service, and 
families are in this together.
    So, thank you all very much.
    Mr. Lauber. Thank you.
    Mr. Buch. Thank you.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 10:38 a.m., the hearing was adjourned.]
                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 82626.002

[GRAPHIC] [TIFF OMITTED] 82626.003

[GRAPHIC] [TIFF OMITTED] 82626.004

[GRAPHIC] [TIFF OMITTED] 82626.005

[GRAPHIC] [TIFF OMITTED] 82626.006

[GRAPHIC] [TIFF OMITTED] 82626.007

[GRAPHIC] [TIFF OMITTED] 82626.008

[GRAPHIC] [TIFF OMITTED] 82626.009

[GRAPHIC] [TIFF OMITTED] 82626.010

[GRAPHIC] [TIFF OMITTED] 82626.011

[GRAPHIC] [TIFF OMITTED] 82626.012

[GRAPHIC] [TIFF OMITTED] 82626.013

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 82626.018

[GRAPHIC] [TIFF OMITTED] 82626.019

[GRAPHIC] [TIFF OMITTED] 82626.020

[GRAPHIC] [TIFF OMITTED] 82626.021

[GRAPHIC] [TIFF OMITTED] 82626.022

[GRAPHIC] [TIFF OMITTED] 82626.023

[GRAPHIC] [TIFF OMITTED] 82626.024

[GRAPHIC] [TIFF OMITTED] 82626.025

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   



</pre></body></html>
